No. ___________________________

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
ULIS HOWARD ALEXANDER
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent
PROOF OF SERVICE
I, Stanley L. Schwieger, do swear or declare that on November 2, 2020 as required by Supreme
Court Rule 29, I have served the enclosed Motion for Leave to Proceed in Forma Pauperis and Petition
for a Writ of Certiorari on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within three calendar days.
The names and addresses of those served are as follows: three copies of the Petition for Writ
of Certiorari and one copy of the Motion to Proceed in Forma Pauperis in the above-entitled case were
mailed, first-class postage prepaid to Mr. Joseph H. Gay, Jr., Assistant U. S. Attorney, Suite 600, 601
N. W. Loop 410, San Antonio, Texas 78216 and to the Honorable Solicitor General of the United States,
Department of Justice, Washington, D.C. 20530.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 2, 2020.
/s/ Stan Schwieger
Stan Schwieger
600 Austin Avenue, Suite 12
Waco, Texas 76701
(254) 752-5678
(254) 752-7792 – Facsimile
State Bar No. 17880500
ATTORNEY FOR PETITIONER

